STATE OF MICHIGAN
DEPARTMENT OF ATTORNEY GENERAL

P.O. BOX 30212
LANSING, MICHIGAN 48909
DANA NESSEL
ATTORNEY GENERAL

September 14, 2020

Scott Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re:

Lebamoff Enterprises Inc., et al. v. Gretchen Whitmer, et al.
United States Supreme Court No. 20-47

Dear Mr. Harris:
Consistent with Supreme Court Rule 30.4, Respondents respectfully request
that the time in which to file their brief in opposition be extended 30 days. The
Respondents’ answer is due on or before October 9, 2020. An additional 30 days is
Sunday, November 8, 2020, which would make the brief due on Monday, November
9, 2020.
Respondents seek this extension due to numerous competing deadlines and
obligations as well as the shifting responsibilities during the COVID-19 crisis.
Respondents’ counsel, as Michigan Solicitor General, is in charge of all appellate
litigation for the State of Michigan and in this capacity is drafting and reviewing
other briefs even with the suspension of filing deadlines in the Michigan Appellate
Courts.
Sincerely,

FAH:hlg
Enclosure (Proof of Service)
cc:
James Alexander Tanford

Fadwa A. Hammoud
Solicitor General
517-335-7628

